           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CONTROLS OVER OLD-AGE, SURVIVORS
AND DISABILITY INSURANCE REPLACEMENT
CHECKS FOR BENEFICIARIES WHO DOUBLE
     NEGOTIATED BENEFIT CHECKS


      July 2012    A-02-10-10127




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      July 18, 2012                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Old-Age, Survivors and Disability Insurance Replacement Checks for
           Beneficiaries Who Double Negotiated Benefit Checks (A-02-10-10127)


           OBJECTIVE
           Our objective was to determine the effectiveness of the Social Security Administration’s
           (SSA) efforts to (1) prevent double check negotiations (DCN) and (2) identify and
           recover related overpayments.

           BACKGROUND
           When an individual reports he/she did not receive his/her Old-Age, Survivors and
           Disability Insurance (OASDI) check, SSA can issue a courtesy replacement check
           before the Department of the Treasury (Treasury) determines the status of the original
           check. If information is available to indicate a beneficiary abused the replacement
           check process within the prior 24 months, SSA may choose to direct Treasury to
           investigate the status of the original check before issuing a replacement. 1

           A DCN occurs when an individual cashes the original and replacement checks for the
           same benefit month that results in an overpayment and the individual’s signature was
           not forged on the checks. 2 SSA requires a DCN investigation to determine whether the
           individual actually cashed both checks (SSA calls this a true DCN) or if forgery by an
           unauthorized individual was involved. 3 SSA’s Recovery of Overpayments, Accounting
           and Reporting (ROAR) system tracks overpayments related to DCNs for recovery.




           1
               SSA, POMS, GN 02406.150.A. (April 1, 2008).
           2
               SSA, POMS, GN 02406.300.A. (June 17, 2009).
           3
               SSA, POMS, GN 02406.310.A. (June 17, 2009).
Page 2 - The Commissioner
In a May 2006 audit, 4 we looked at DCNs from October 2001 through May 2004. We
found that controls over the OASDI replacement check process were not preventing
SSA from improperly recording DCNs and ensuring SSA recovered the correct amount
of overpayments related to DCNs. In that report, we highlighted steps SSA could take
to help prevent and recover DCN overpayments. 5

For our current audit, we used two sources of data to complete two separate analyses.
First, we determined whether SSA determined the status of replacement checks once
Treasury reported to SSA that the original benefit checks were cashed. To do this, we
obtained 88,370 records from 1 Payment History Update System (PHUS) 6 segment
representing beneficiaries who received replacement checks from January 2005
through May 2011 before SSA determined the status of the original check. From this
population, we identified 733 cashed original checks for which SSA did not determine
the status of the replacement check. We reviewed a sample of 50 of these cases.

Second, we determined whether SSA posted overpayments in all cases when an
individual cashed both an original and replacement benefit check. For this analysis, we
identified 25,430 ROAR records from 1 segment of the Master Beneficiary Record
(MBR) 7 with a DCN that occurred from January 2005 through May 2011. The DCNs
totaled $19.9 million in payments. We compared the selected PHUS records to the
ROAR records and identified 143 records that showed an individual cashed both the
original and replacement checks, but SSA did not post a DCN overpayment to each
individual’s ROAR. We reviewed a sample of 50 of these cases. See Appendix B for a
full description of our scope and methodology.

RESULTS OF REVIEW
SSA had taken actions to decrease the number of OASDI DCNs since we conducted
our last audit. For example, SSA developed program messages and memorandums,
additional training programs for its staff, and a Web-based tool to help identify DCNs. In
Fiscal Year (FY) 2012, SSA also implemented a system enhancement that
automatically places a stop payment on replacement checks when Treasury reports to
SSA an individual cashed an original check. 8 Before this system enhancement, SSA


4
 SSA OIG, Controls over Old-Age, Survivors and Disability Insurance Replacement Checks
(A-02-05-15080), May 2006, page 2.
5
 We also released a report, Supplemental Security Income Double Check Negotiations,
(A-06-10-20144), January 2011, page 4.
6
    One segment of the PHUS represents 5 percent of the total population of MBR beneficiaries.
7
    One segment of the MBR represents 5 percent of the total population of MBR beneficiaries.
8
 SSA and Treasury implemented the enhancement in December 2011 and first conducted a pilot at
SSA’s Processing Center in New York. SSA released the enhancement nationwide in February 2012.
Page 3 - The Commissioner
staff manually initiated a stop payment on the replacement check when Treasury
reported the individual cashed the original check.

SSA’s efforts corresponded with a decrease in the number of DCNs. In addition, in
most cases, SSA recovered from beneficiaries the DCN-related overpayments posted to
ROAR.

In 2011, Treasury began an initiative to greatly reduce the use of paper checks for all
Federal benefit payments by March 2013, including Social Security benefit payments. 9
In 2013, Treasury will direct deposit Social Security benefit payments into beneficiaries’
bank accounts or to Direct Express debit cards. 10 This regulatory change should
substantially reduce, if not practically eliminate, DCNs in the future.

While we anticipate this initiative will substantially reduce DCNs starting in 2013, SSA
has DCN-related overpayments on record it can recover, and the Agency could do more
to identify additional overpayments. For example, SSA did not always stop the payment
of replacement checks when Treasury reported an individual cashed the original check.
In these cases, SSA had the opportunity to identify DCN-related overpayments, but it
did not do so. Additionally, SSA did not post all DCN overpayments to ROAR for
recovery even though Treasury reported to SSA the individual cashed both the original
and replacement checks. In these cases, SSA did not attempt to recover the
DCN-related overpayments because the overpayment did not appear in ROAR, which
records and tracks overpayment recovery efforts.

SSA’s ACTIONS

Since our 2006 DCN audit, SSA developed program messages and memorandums,
additional training programs, and a Web-based tool, called DCN Wiz, to assist staff in
identifying DCNs. In December 2011, SSA released an automated enhancement that
placed an automatic stop payment on a replacement check when Treasury indicated an
individual cashed the original check. Previously, an employee had to initiate the stop
payment on a replacement check. We believe SSA’s new automated improvement will
further decrease DCNs over time because it eliminates the need for staff to activate the
stop payment. 11

TREASURY’S ACTIONS

In April 2010, Treasury announced an initiative to eliminate the use of paper checks for
benefit payments. By March 1, 2013, Treasury will direct deposit all Social Security

9
 Treasury Department News Release, Treasury Goes Green – Saves Green, TDNR TG-644,
April 19, 2010, http://www.treasury.gov/press-center/press-releases/Pages/tg644.aspx .
10
     There are limited exceptions to this rule.
11
 SSA and Treasury implemented the enhancement in December 2011 and first conducted a pilot at
SSA’s Processing Center in New York. SSA released the enhancement nationwide in February 2012.
Page 4 - The Commissioner
benefit payments into beneficiaries’ bank accounts or to Direct Express debit cards. 12
There are limited exceptions to this rule, but we believe implementation of this initiative
will substantially reduce the possibility of lost or stolen paper checks, which will prevent
future DCNs. 13

NUMBER OF TITLE II DCNs POSTED TO ROAR

The number of Title II DCNs posted to ROAR has decreased since 2007. We estimate
SSA posted 95,880 DCNs to ROAR in FY 2007 and 77,380 DCNs in FY 2008. 14 This
represents a 19-percent decrease from 1 year to the next. DCNs decreased an
additional 10.5 percent from FY 2009 to FY 2010.

                                Total Number of Title II DCNs
         150,000



         120,000

                       95,880
          90,000
                                         77,380
                                                            66,160
          60,000                                                               59,200



          30,000



              0
                        2007              2008               2009               2010




The same trend of a decrease in the number of DCNs continued into FY 2011. From
January to May 31, 2011, we estimate there were 24,560 DCNs posted to ROAR, which
was a decrease of 7.3 percent when compared to the same period in FY 2010.




12
 The Direct Express Debit MasterCard is a Treasury-sponsored prepaid debit card made available to
Social Security beneficiaries and Supplemental Security Income recipients.
13
  Treasury Department News Release Treasury Goes Green – Saves Green, TDNR TG-644,
April 19, 2010, http://www.treasury.gov/press-center/press-releases/Pages/tg644.aspx.
14
  SSA divides the MBR into 20 segments for processing and updating. SSA determines the segments by
the last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected segment 2 and received data from that segment. We multiplied the number of
overpayments in the segment we reviewed by 20 to estimate the number of overpayments in the entire
population.
Page 5 - The Commissioner
DCN OVERPAYMENTS

SSA recovered the majority of overpayments caused by DCNs. The Agency took other
actions to clear the overpayments from beneficiaries’ records. From January 1, 2005 to
May 31, 2011, SSA recovered, reduced, or waived 22,922 (90 percent) of the
25,430 DCN overpayments posted to 1 segment of ROAR, which totaled $17.7 of the
$19.9 million in DCN overpayments. Specifically,

•    20,615 DCN overpayments were recovered.
•    1,941 DCN overpayments were reduced. SSA may reduce an overpayment for
     various reasons, including approving a beneficiary's request for reconsideration. 15
     SSA may also reduce an overpayment because of a credit.
•    366 DCN overpayments were waived. Although SSA’s policy states that SSA
     should not waive DCN overpayments, we found SSA waived about 1 percent of the
     overpayments. 16

Overpayments established in 2010 and 2011 were more likely to have an outstanding
balance because SSA did not have as much time to recover them as the older
overpayments. See the table below for the outstanding balances by year.

                     DCN                   Amount of           Overpayments            Balance of
         Year    Overpayments             Overpayment             with an            Overpayments
    Overpayment    posted to               (Beginning           Outstanding           as of August
     Established    ROAR                    Balance)             Balance                  2011
         2005        4,703                 $3,317,276               206                 $164,322
         2006        4,568                 $3,321,037               189                 $174,944
         2007        4,794                 $3,708,370               262                 $261,586
         2008        3,869                 $3,026,054               283                 $226,773
         2009        3,308                 $2,830,842               344                 $281,254
         2010        2,960                 $2,578,133               708                 $559,823
      January 1,
       Through       1,228                  $1,072,284                516                $451,933
    May 31, 2011
        Totals      25,430                  19,853,996               2,508            $2,120,635 17



15
  According to SSA, POMS, GN 02406.310 (effective June 17, 2009) if an individual disagrees with the
overpayment because he or she did not cash both checks, he or she may request reconsideration. SSA
then obtains a forgery determination from Treasury.
16
  SSA, POMS, GN 02406.310.K. (effective June 17, 2009) states SSA should not waive a DCN
overpayment.
17
  We rounded the overpayment balance for each year to the nearest dollar. The totals line reflects the
sum of rounded amounts.
Page 6 - The Commissioner
SSA was either collecting or had terminated collection activity for the remaining
2,508 DCN overpayments, which totaled $2,120,635. 18 Of these DCN overpayments,

•     1,494 were being recovered from current benefits.
•     504 were for terminated or suspended individuals, so SSA had terminated collection
      activity. 19
•     300 were protested by the individuals. The beneficiaries’ request for SSA to waive
      or reconsider the overpayment was pending.
•     166 were not being collected from terminated or suspended individuals, but SSA
      had not terminated collection activity, 20 or individuals who had another overpayment
      withheld from their benefits.
•     44 had remittance agreements to repay the overpayment in monthly installments.

STATUS OF REPLACEMENT CHECKS

Before FY 2012, SSA staff had to input a stop payment on a Treasury-issued
replacement check once Treasury notified SSA that an individual cashed the original
check. To test whether this stop payment action occurred, we identified the original
checks that were cashed after Treasury issued replacement checks in one segment of
the MBR from January 1, 2010 through May 31, 2011. We compared these records to
data from PHUS of stop payments on replacement checks. 21 From this data match, we
identified 733 records where it appeared there was no stop payment applied to a
replacement check after an original check was cashed.

We reviewed a random sample of 50 of the 733 cases to determine whether SSA
applied a stop payment on the replacement checks. We found the following.

•     In five cases, SSA issued a stop payment on the replacement check, as required.
•     In 16 cases, SSA received returned replacement checks, and no further action was
      required.
•     In eight cases, SSA input a stop payment on the replacement check, as required.
      However, because of an input error, the stop payment did not process correctly.

18
     This total is as of August 2011.
19
  According to Federal law, SSA has the authority to terminate or suspend attempts to recover an
overpayment when it appears the debtor cannot repay or the cost of collection is likely to be more than
the amount recovered. 31 U.S.C. § 3711.
20
   Although the beneficiary was in terminated or suspense status, and benefit withholding from current
benefits to recover the overpayment was not possible, SSA had not terminated or suspended collection
efforts for these overpayments.
21
  We reviewed replacement check data for replacement checks dated 1 to 7 days after the report of a
non-receipt of a check was recorded on PHUS.
Page 7 - The Commissioner
     SSA later corrected two of the input errors. The remaining six cases required an
     additional stop payment action because of input errors. SSA did not take the
     required action, and the six replacement checks, totaling $4,760, were cashed.
•    For 21 cases, SSA did not input a stop payment on the replacement check as
     required. Of these cases, we discovered 19 overpayments totaling
     $22,777 because the individuals cashed the replacement check. The remaining two
     replacement checks were never cashed.

In total, SSA did not properly input stop payments when required for 27 cases; 21 cases
where the stop payment was not input at all and 6 input errors SSA did not correct.
SSA did not follow up on the status of these 27 replacement checks to determine
whether a true DCN existed. Based on these results, we estimate that, in the same
period for the entire population, SSA did not follow up on the status of
7,920 replacement checks to determine whether a true DCN existed. See Appendix C
for our sampling methodology and results, which explains our projections and
estimates. If a DCN existed, the individuals were overpaid, and SSA should have
posted the overpayments to ROAR.

We reviewed Treasury’s Check Information Systems and determined that, in 25 cases,
someone cashed the replacement checks totaling $27,537. The individuals were
overpaid because the original checks were also cashed. Based on these results, we
estimate that in the same period, for the entire population, 7,340 DCN overpayments
totaling $8,073,780 occurred, but staff did not post them to ROAR because SSA did not
follow up on the status of the replacement check with a stop payment.

ACCURACY OF ROAR RECORDS

We completed a separate analysis to determine whether SSA posted all DCN-related
overpayments. For this analysis, we identified 143 incidences from 1 segment of the
PHUS where an individual cashed the original and replacement checks, but SSA did not
post the overpayment to ROAR as a DCN-related overpayment between
January 1, 2010 and May 31, 2011. Unlike the prior set of cases where SSA failed to
request the status of the replacement check, Treasury reported to SSA that both the
original and replacement checks were cashed in these cases.

To confirm that SSA posted overpayments, we reviewed a random sample of 50 of the
143 cases. We confirmed that a DCN overpayment occurred in all 50 cases, but SSA
only recorded 26 to ROAR. 22 We did not initially identify these overpayments on ROAR
because SSA did not post them as DCN-related overpayments.

SSA should have posted a DCN-related overpayment totaling more than $18,000 for the
remaining 24 cases but did not. SSA did not post these overpayments to ROAR as

22
  SSA recorded 25 of the overpayments as a type of overpayment other than a DCN. Although one
additional overpayment occurred in January 2010, SSA did not post it to ROAR until August 2011, which
was after we extracted our data.
Page 8 - The Commissioner
DCN-related or any other type of overpayments. Based on these results, we estimate
that in the same period, for the entire population, SSA did not record 1,380 DCN
overpayments totaling $1,047,320 to ROAR.

CONCLUSION
We commend SSA for the actions it has taken to address DCNs, which corresponded
with a decline in the number of DCNs. We believe the information in this report will help
the Agency continue to decrease the number of DCNs. To that end, we provided our
sample cases to SSA for appropriate corrective action.

While DCNs continue to decrease, and after Treasury transitions to direct deposit for
most Social Security benefits, SSA should remain alert to the potential DCN issues that
may arise.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
DCN        Double Check Negotiation
FY         Fiscal Year
OASDI      Old-Age, Survivors and Disability Insurance
OIG        Office of the Inspector General
MBR        Master Beneficiary Record
PHUS       Payment History Update System
POMS       Program Operations Manual System
ROAR       Recovery of Overpayments, Accounting and Reporting
SSA        Social Security Administration
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections from the Social Security Administration’s (SSA)
    Program Operations Manual System.

•   Reviewed applicable laws.

•   Reviewed the Office of the Inspector General report, Controls over Old-Age,
    Survivors and Disability Insurance Replacement Checks (A-02-05-15080),
    May 31, 2006.

•   Obtained and reviewed Recovery of Overpayments, Accounting and Reporting
    (ROAR) data from 1 of 20 segments of the Master Beneficiary Record identifying
    27,893 double check negotiations (DCN), totaling $21.7million, that occurred from
    June 2004 through May 2011.

•   Extracted 100,984 Payment History Update System (PHUS) non-receipt events that
    occurred from June 1, 2004 through August 12, 2011. We also extracted
    33,886 PHUS stop payment events for the same time period. These stop payment
    events occurred within 1 week of the non-receipt input.

•   Compared the extracted records from PHUS of reports of non-receipts to the
    extracted records from PHUS of benefit checks that the Department of the Treasury
    (Treasury) cancelled by a stop payment action. This match provided us the
    population of non-receipts that resulted in the issuance of a replacement check that
    did not have a corresponding stop payment on the replacement payment. We then
    isolated those non-receipts that showed a status of cashed for the original check.
    We identified 3,949 cashed original checks that did not have a corresponding stop
    payment on the replacement check. To focus on the most current overpayments,
    we limited our review to the 733 non-receipts that occurred from January 1, 2010
    through May 31, 2011. We selected a random sample of 50 of the 733 cases for
    review. We reviewed PHUS and ROAR records and queried Treasury’s Check
    Information System to determine the check’s status and whether SSA posted
    overpayments.

•   Compared the extracted records from PHUS of reports of non-receipts to the
    extracted records from PHUS of benefit checks that Treasury cancelled by a stop
    payment action. This match provided us a population of DCN overpayments. We
    then compared these records to ROAR data to determine whether SSA posted a
    DCN overpayment to ROAR. We identified 949 PHUS records that did not have a
    corresponding DCN ROAR event. To focus on the most current overpayments, we


                                           B-1
    limited our review to the 143 DCNs that occurred from January 1, 2010 through
    May 31, 2011. We reviewed a random sample of 50 of the 143 records.

•   Obtained information from the Office of Financial Policy and Operations about SSA’s
    recent automated enhancement to take additional actions when Treasury indicates
    the individual cashed the original check after receiving the replacement check.

We performed our review from May 2011 to April 2012 in New York, New York. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objectives. The entity audited was the Office of the Deputy Commissioner of
Public Service and Operations Support under the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




                                          B-2
                                                                                  Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment 1 of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) of beneficiaries who had an overpayment for
double check negotiations (DCN) posted to the Recovery of Overpayments, Accounting
and Reporting (ROAR) system from January 1, 2005 through May 31, 2011. In total, we
identified 25,430 DCN overpayments with an outstanding balance of $2,120,635, as of
August 2011. See Table C-1 below.

                          Table C-1 - DCN Overpayment Recovery
                                  DCN
                                                                                    Balance of
                             Overpayments        Amount of
           Year                                                                  Overpayments as
                                Posted to      Overpayments
                                                                                  of August 2011
                                 ROAR
          2005                    4,703          $3,317,276                            $164,322
          2006                    4,568          $3,321,037                            $174,944
          2007                    4,794          $3,708,370                            $261,586
          2008                    3,869          $3,026,054                            $226,773
          2009                    3,308          $2,830,842                            $281,254
          2010                    2,960          $2,578,133                            $559,823
    January 1 Through
                                     1,228                $1,072,284                   $451,933
      May 31, 2011
          Total                     25,430               $19,853,996                 $2,120,635 2

We estimated the number and amount of DCN overpayments that occurred in the entire
population by multiplying the number and amount of overpayments in the segment we
reviewed by 20. One segment represents 5 percent of the total population of
beneficiaries so multiplying the statistics identified in one segment provides an estimate
of the statistics in the entire population. See Table C-2.




1
  SSA divides the MBR into 20 segments for processing and updating. SSA determines the segments by
the last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected segment 2 and received data from that segment.
2
 We rounded the overpayment balance for each year to the nearest dollar. The totals line reflects the
sum of rounded amounts.


                                                 C-1
     Table C-2 - Estimated Number of DCN Overpayments Posted to ROAR
                                                Estimated
                                               Number of
                                                               Estimated
                   DCN                             DCN
                                Amount of                      Amount of
              Overpayments                    Overpayments
                              Overpayments                  Overpayments
                 Posted to                      Posted to
   Year                       in Segment 2                      in Entire
                 ROAR in                         ROAR in
                                                              Population
                Segment 2                         Entire
                                               Population
   2005            4,703        $3,317,276        94,060      $66,345,516
   2006            4,568        $3,321,037        91,360      $66,420,732
   2007            4,794        $3,708,370        95,880      $74,167,402
   2008            3,869        $3,026,054        77,380      $60,521.086
   2009            3,308        $2,830,842        66,160      $56,616,838
   2010            2,960        $2,578,133        59,200      $51,562,652
 January 1
  Through          1,228        $1,072,284        24,560      $21,445,680
May 31, 2011

Additionally, we obtained a data extract from the same segment of the Payment History
Update System (PHUS) of records that indicated a beneficiary reported a non-receipt of
payment and the Department of the Treasury (Treasury) issued a replacement check
before determining the status of the original check. We also extracted PHUS records
that indicated SSA had entered a stop payment action on a replacement check that
Treasury issued 1 to 7 days after SSA input the non-receipt report. We chose to extract
stop payment actions on checks that Treasury issued 1 to 7 days after PHUS recorded
the non-receipt report because Treasury will issue a replacement check within a week
of the non-receipt report. However, during our sample review, we noted that some
replacement checks had a date equal to or before the date SSA recorded the non-
receipt on PHUS.

We limited our sample review to the most recent reports of non-receipt of payment and
DCNs, those occurring January 1, 2010 through May 30, 2011. During this period,
there were 3,511 records with two types of non-receipt inputs that resulted in the
issuance of a replacement check before the status of the original check was known
(referred to as A stops and B stops). Treasury later determined that the original check
was cashed (the Treasury disposition code was 23).

We compared the 3,511 records that had a non-receipt input and a cashed original
check to the records we extracted with stop payment actions for replacement checks.
Per this data match, 733 of the 3,511 records had a non-receipt input and a cashed
original check but did not have a corresponding stop payment action for the




                                          C-2
replacement check provided to the beneficiaries. We selected a random sample of
50 3 of the 733 record for review to verify that SSA placed a stop payment on these
records and verified the action the Agency took. Tables C-3 through C-5 provide the
details of our sample results, statistical projections, and estimates.

  Table C-3 - Population and Sample Size: Replacement Checks Without Status
                                                 Cashed Original Checks and
                                                  Data Did Not Show a Stop
                   Description
                                                 Payment on the Replacement
                                                           Checks
Population Size (data extract from 1 segment)                  733
Sample Size                                                     50
Combined Potential Overpayment for Population             $634,137
Combined Potential Overpayment for Sample                  $46,880

                Table C-4 - PHUS Records with a Cashed Original Check
                 and the Status of Replacement Check Not Determined
                 Description                  Number of Payments
                 Sample Results                          27
                 Point Estimate                         396
                 Projection- Lower Limit                307
                 Projection- Upper Limit                482
                 Estimate for Entire MBR              7,920
                Note: All statistical projections are at the 90-percent confidence level.

We reviewed Treasury’s Check Information Systems and determined that in 25 of the
50 cases, someone cashed the replacement checks totaling $27,537. The individuals
were overpaid because the original checks were also cashed.




3
  Although our data extract showed that the 733 records did not have a stop payment input, 13 of the
50 records in our sample review had a stop payment input. For 8 of the 13 records, the stop payment
was input incorrectly, and 6 of these should have been re-input. SSA later determined the status of two
of the cases. For the remaining five records, we did not extract data for the stop payment action on the
replacement check because the date Treasury issued the replacement check was the same or earlier
than the date the report of non-receipt posted to the PHUS. We expected the date Treasury issued the
replacement checks to be later than the date the non-receipt posted to the PHUS.


                                                   C-3
     Table C-5 - PHUS Records with a Cashed Original Check and the Status of
   Replacement Check Not Determined by SSA but Replacement Check Cashed
 Description                Number of Payments        Overpayment Amounts
 Sample Results                           25                      $27,537
 Point Estimate                          367                     $403,689
 Projection- Lower Limit                 279                      $72,090
 Projection- Upper Limit                 454                     $735,289
 Estimate for Entire MBR               7,340                   $8,073,780
Note: All statistical projections are at the 90-percent confidence level.

 We matched our extract of PHUS records with stop payment actions on replacement
 checks to the extract of records with corresponding non-receipt input on the original
 check. We then compared this data to the extract of ROAR records with DCN-related
 overpayments to determine whether all the records with cashed original and
 replacement checks had overpayments posted to ROAR. We identified 143 PHUS
 records that did not have a corresponding DCN ROAR event. We reviewed a sample of
 50 of the 143 records to determine whether SSA should have posted an overpayment to
 ROAR. Tables C-6 and C-7 provide the details of our sample results, statistical
 projections, and estimates.

        Table C-6 - Population and Sample Size: DCNs not Posted to ROAR
                                               Replacement Check Had a Status
                  Description                  of Cashed, But There Was No DCN
                                                    Overpayment on ROAR
 Population Size (Data extract from 1 segment)                   143
 Sample Size                                                      50
 Combined Replacement Payment Amount for
                                                            $127,513
 Population
 Combined Potential Overpayment for Sample                   $34,691

   Table C-7 - Records with Cashed Original and Replacement Checks Without a
                         Posted DCN Overpayment on ROAR
                                Number of Unposted
         Description                                   Overpayment Amounts
                                  Overpayments
 Sample Results                             24                  $18,310
 Point Estimate                             69                  $52,366
 Projection- Lower Limit                    55                  $39,554
 Projection- Upper Limit                    83                  $65,177
 Estimate for Entire MBR                 1,380               $1,047,320
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-4
                                                                          Appendix D

Agency Comments

July 02, 2012

SUBJECT: Audit No. 22011062 (A-02-10-10127)--OIG Draft Report, "Controls over Old-Age,
Survivors and Disability Insurance Replacement Checks for Beneficiaries Who Previously
Double Negotiated Benefit Checks"


Steve,

Thank you for the opportunity to review the “Controls over Old-Age, Survivors and Disability
Insurance Replacement Checks for Beneficiaries Who Previously Double Negotiated Checks”
draft report. We have no comments.

Staff may refer any questions to Amy Thompson on extension 60569.

Tina M. Waddell
Assistant Deputy Commissioner
for Budget, Finance, and Management
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Christine Hauss, Audit Manager, (212) 264-5826

Acknowledgments

In addition to those named above:

   Bosede Olaogun, Program Analyst

   William Kearns, IT Specialist

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-10-10127.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
